No. 19-715

 

In THE

Supreme Court of the United States

DONALD J. TRUMP, et al.,

Petitioners,
v.

MAzars USA, LLP AND
COMMITTEE ON OVERSIGHT AND REFORM OF THE U.S.
HOUSE OF REPRESENTATIVES,

Respondents.

On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The District Of Columbia Circuit

BRIEF IN OPPOSITION FOR RESPONDENT
COMMITTEE ON OVERSIGHT AND REFORM OF
THE U.S. HOUSE OF REPRESENTATIVES

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,646 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 11, 2019.

i,

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
